Hotline Complaint             February 10, 2011


    Hotline Complaint Regarding Allegations
   of Abusive Behavior by a Supervisor in the
         Defense Contract Audit Agency
              Northeastern Region

           Report No. D-2011-6-003
  Additional Copies

  To obtain additional copies of the final report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760
  (DSN 664-8760) or fax (703) 604-8982.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
  fax (703) 604-8982. Ideas and requests can also be mailed to:


                          Office of the Assistant Inspector General
                               for Audit Policy and Oversight
                          Department of Defense Inspector General
                            400 Army Navy Drive (Room 833)
                                 Arlington, VA 22202-4704




Acronyms

DCAA                Defense Contract Audit Agency
GAO                 Government Accountability Office
IG                  Inspector General
                                 INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704



                                                                        FEB 10 2011
MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: Report on Hotline Complaint Regarding Allegations of Abusive Behavior by
         a Supervisor in the Defense Contract Audit Agency, Northeastern Region
         (Report No. D-20 11-6-003)

        We are providing this report for your information and use. We performed this
review based on a Defense Hotline complaint. We considered management comments on
a draft of this repOli. The management comments conformed to the requirements of DoD
Directive 7650.3; therefore, additional comments are not required.

      We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877), or carolyn,davis@dodig.l11il.


                                     #0    Randolph R. Stone
                                        Deputy Inspector General
                                         for Policy and Oversight
Table of Contents
Results in Brief                                                              i

Introduction

   Objective                                                                  1
   Background                                                                 1

Finding

   Hotline Allegation: Abusive Behavior by a Supervisor                       2
      Supervisor had Serious Problems Dealing with Subordinates               2
      Management Failed to Hold the Supervisor Accountable for Her Actions    5
          Recommendations                                                     9


Appendix

   A. Scope and Methodology                                                  11


Management Comments

   Defense Contract Audit Agency                                             12
                   Allegations of Abusive Behavior by a
                  Supervisor in the Defense Contract Audit
                       Agency Northeastern Region
Results In Brief
What We Did
                                                  What We Recommend
We reviewed the DoD Hotline complaint
alleging that a supervisor working in the         DCAA should increase the number of
Defense Contract Audit Agency (DCAA)              evaluations performed during a supervisor’s
Northeastern Region had exhibited abusive         probationary period from one to at least
behavior toward her subordinates and that         three, in order to adequately monitor and
management did not hold the supervisor            document their progress and take timely
accountable for her behavior.                     corrective action. Further, we recommend
                                                  that DCAA assess its current procedures and
What We Found                                     training given to supervisors and managers
                                                  to ensure that supervisors are properly
We substantiated the allegation that a            trained in interpersonal skills, management
supervisor in the Northeastern Region of          implements a strong program to monitor
DCAA created a highly stressful work              new supervisors, and management holds
environment at two offices.            The        supervisors accountable for maintaining
supervisor’s behavior was inconsistent with       effective    and    professional    working
the ethical values contained in DoD 5500.7-       relationships. Finally, we recommend that
R and established DCAA performance                DCAA consider appropriate actions
standards. DCAA management did not take           concerning the supervisor’s first-line and
timely and effective action to correct the        second-line manager to clarify and reinforce
work environment issues caused by the             appropriate management behavior.
supervisor. The supervisor’s actions were
not conducive to fostering a work
environment with high morale, mutual trust,       Management Comments
and respect. Management did not hold the
supervisor accountable for her actions            DCAA concurred with all recommendations
during the annual performance appraisal           and provided an adequate plan for
process, and did not adequately monitor or        implementing these recommendations.
counsel the supervisor during her
probationary period.       The supervisor’s                 United States Department of Defense
                                                                Office of Inspector General
actions were partly rooted in the Agency-                   Project No. D2010-DIP0AI-0068.000
wide culture, which emphasized a                                 Report No. D-2011-6-003
                                                                     February 10, 2011
production-oriented work environment.




                                              i
                                      Introduction
Objective
We conducted this review to determine whether the complainant’s allegations concerning a
supervisor’s abusive behavior can be substantiated. The complainant, who is anonymous,
specifically alleged that:

        •   a supervisor had serious problems dealing with subordinates, and
        •   management failed to hold the supervisor accountable for her actions.

See Appendix A for details regarding our scope and methodology.

Background
Defense Contract Audit Agency (DCAA) is under the authority, direction, and control of the
United States Under Secretary of Defense (Comptroller). DCAA is responsible for performing
all contract audits for the DoD and providing accounting and financial advisory services
regarding contracts and subcontracts to all DoD Components responsible for procurement and
contract administration. These services are provided in connection with negotiation,
administration, and settlement of contracts and subcontracts. In addition, DCAA performs
contract audit services for non-DoD Federal organizations on a reimbursable basis.

The Government Accountability Office (GAO) issued two reports addressing DCAA work
environment and audit quality issues, including one in July 2008 1 and the other in September
2009 2. The 2008 report addressed frequent DCAA management actions that served to intimidate
auditors, impair some audits, and create an abusive environment at two offices of three covered
in its investigation. The 2009 report noted that nationwide audit quality problems were rooted in
DCAA’s poor management environment and culture, which included DCAA’s focus on a
production-oriented mission and the establishment of policies, procedures, and training that
emphasized performing a large quantity of audits over audit quality.

After the 2008 GAO report, the DoD Hotline received a significant increase in the number of
complaints regarding work environment issues at DCAA, including the hotline complaint
addressed in this report. In September 2008, DCAA established its own anonymous hotline web
site and formed an Internal Review division to investigate hotline referrals and other matters.
Although DCAA received the complaint addressed in this report, they elected not to investigate
it because we had already initiated our review.
1
  Report No. GAO-08-857, “DCAA AUDITS: Allegations That Certain Audits at Three Locations Did Not Meet
Professional Standards Were Substantiated,” July 22, 2008.
2
  Report No. GAO-09-468, DCAA AUDITS: “Widespread Problems with Audit Quality Require Significant
Reform,” September 23, 2009.



                                                    1
                                        Finding
Hotline Allegation: Abusive Behavior by a Supervisor
We substantiated the allegations in the DoD Hotline complaint. The complaint alleged that:

       •   a supervisor working in the Northeastern Region had serious problems dealing with
           subordinates; and
       •   management failed to hold the supervisor accountable for her actions.

Eight of nine subordinates we interviewed stated that the supervisor had created a highly
stressful and abusive work environment. DCAA management failed to take timely and effective
action to correct the work environment issues caused by the supervisor. Management did not
adequately monitor or counsel the supervisor, or hold her accountable during the probationary
period and the annual performance appraisal process.

Supervisor Had Serious Problems Dealing with Subordinates. We substantiated the
allegation that the supervisory auditor had serious problems interacting with her subordinates.

Allegation. According to the complainant, a supervisor working in the DCAA Northeastern
Region was incapable of supervising employees. The allegation further states that management
made the mistake of transferring the supervisor to another office, and subordinates at the second
office also complained that the supervisor was extremely abusive and mean spirited.

Background. The subject of this allegation (hereafter referred to as the supervisor) was
assigned to a grade 13 supervisory position in May 2007 at a DCAA Northeastern office
(hereafter referred to as Office A). The supervisor had previously held a non-supervisory,
grade 13, technical specialist position. In February 2008, a Human Resources Officer conducted
a climate survey at the request of the subordinates at Office A, who were having difficulty
working for the supervisor. After completing the survey, the Human Resources Officer
recommended that Regional management meet immediately with the Office A subordinates to
address the subordinates’ concerns.

In March 2008, Regional management met with the subordinates and offered to transfer any of
them to a different office. Since the subordinates enjoyed the work at Office A, only two of the
Office A subordinates requested transfers. Management granted the two transfer requests in
April 2008, but did not take any other action to address the subordinates’ concerns reflected in
the climate survey.

In May 2008, after the work environment at Office A had not improved, Regional management
decided to transfer the supervisor to another office (hereafter referred to as Office B). At that
time, the supervisor’s first-line manager certified that the supervisor had successfully completed



                                                 2
her 1-year probationary period. Within a few months of the supervisor’s transfer to Office B, the
Office B subordinates began lodging complaints against the supervisor.

In February 2009, the Office B subordinates met with the supervisor’s first and second-line
manager to describe how the highly stressful work environment was negatively affecting them,
both inside and outside the office. Shortly after the meeting, management moved the supervisor
into a non-supervisory, grade 13, technical specialist position within the Regional office.

Our Review. We evaluated the results of the February 2008 climate survey that was conducted
while the supervisor was still at Office A. The survey clearly demonstrates the poor work
environment that the supervisor created and the subordinates endured. During the survey, the
Office A subordinates expressed various complaints regarding the supervisor’s actions, such as
micromanagement of timesheets, travel, telework, and other administrative matters. The
subordinates also conveyed that the supervisor did not place any trust in them, even though many
of them had been with the Agency for more than 20 years. Furthermore, the survey reflects that
the subordinates felt the supervisor was abrasive and unprofessional.

We interviewed 3 nine subordinates from Offices A and B, representing all subordinates except
those who had retired or were otherwise not available. We also interviewed the supervisor, her
first-line manager, and her second-line manager. Eight of the nine subordinates (89 percent)
described a very stressful work environment that the supervisor had created. Six of the eight
subordinates who described a very stressful work environment stated that the supervisor was
unprofessional to them, and the remaining two said they were aware of instances in which the
supervisor was unprofessional to others.

        Office A Interviews. In addition to confirming their descriptions of the supervisor from
the climate survey, Office A subordinates stated that the supervisor did not understand the nature
of work performed at Office A and was more concerned with matters of an administrative nature.
Office A subordinates also stated that there was a significant loss of morale as a result of the
stress-filled work environment.

        Office A subordinates described several instances in which they believed the supervisor
had acted inappropriately. For example, two Office A subordinates stated that the supervisor had
expressed extreme anger when they took a colleague to lunch and had not invited her. After
returning from lunch, the supervisor called the subordinates into her office to express that they
had embarrassed her, and suggested that the subordinates contrived the lunch on purpose to
exclude her. To avoid further escalation of the argument, one of the subordinates attempted to
leave the supervisor’s office, but the supervisor yelled, “I am not done with you yet. You get
back here.” The supervisor then threatened the subordinate with a verbal admonishment for the
incident.

3
  As part of the interview process, we placed all employees under oath. We also recorded and obtained
transcriptions of all interviews.




                                                        3
       Office B Interviews. Office B subordinates stated during our interviews that the
supervisor had a very poor management style and did not possess any people skills. The
subordinates described the supervisor as suspicious, insulting, and intimidating. Some of the
subordinates stated that she would occasionally yell at them. When asked what it was like
working for the supervisor, one responded, “…. fear-driven, like walking on eggshells.” Another
subordinate stated that “it is not a good thing to come to work crying or to feel like you need to
cry.”

        Among the several incidents described by Office B subordinates, one involved the
supervisor criticizing a subordinate for helping a new employee with routine administrative
matters. According to the subordinate, the supervisor told him on several occasions, “You can’t
help her. You are a trainee. You don’t know anything.” The same subordinate also recalled an
incident when he asked the supervisor questions regarding a sample he had selected in advance
of his attendance at a statistical sampling course. After the supervisor told him, “I don’t know,
figure it out,” the subordinate contacted the instructor for assistance. When the supervisor
learned that the subordinate had asked the instructor for assistance, the supervisor responded,
“How dare you go over my head! This makes me look bad.”

        Supervisor Interview. The supervisor acknowledged having difficulties with some
subordinates and does not deny that the incidents had occurred. However, the supervisor felt that
the subordinates had taken some of the incidents out of context. She also said the subordinates
did not welcome her at Office A because they wanted management to select someone else for the
position. The supervisor also believes that the team structure of Offices A and B were partly
geared for her failure. She repeatedly asked management to provide her with additional senior
subordinates or assistance from another seasoned supervisor, but management never provided
her that assistance. The supervisor also pointed out that the difficulties between her and the
subordinates at Office A were partly due to management’s desire to implement changes designed
to increase their oversight of the audits. According to the supervisor, the subordinates strongly
resisted those changes.

        First and Second-Line Manager Interviews. The first-line manager, who managed
the supervisor at both Offices A and B, said that the supervisor was not right for the position.
The first-line manager said she was not sure if the supervisor or the subordinates were to blame
for the difficulties at Office A. However, the first-line manager eventually realized that the
supervisor’s interpersonal skills toward subordinates were not well-suited for a supervisory
position, once she began hearing similar complaints from the Office B subordinates.

       We interviewed the second-line manager at Office A. We were unable to interview the
second-line manager of Office B because he is now retired and hampered by a medical condition.
The second-line manager of Office A stated that she was aware of the complaints, but
acknowledged that she did not witness the day-to-day interactions between the supervisor and
the subordinates. Despite the difficulties as a supervisor, both the first and second-line managers
pointed out that the supervisor is a very knowledgeable auditor and doing well in her current
capacity as a technical specialist.



                                                4
Based on evidence we obtained from the climate survey and from our interviews, we
substantiated the allegation that the supervisor had serious difficulties working with subordinates
and that she had created a highly stressful and abusive work environment. We substantiated the
allegation based primarily on the following evidence:

           •   subordinates gave compelling, specific, and frequent examples of the supervisor’s
               inappropriate behavior;
           •   89 percent of the subordinates at two separate offices stated that the supervisor
               exhibited abusive or unprofessional behavior toward them or others;
           •   complaints of the supervisor’s behavior were similar in nature, and often
               supported by emails or contemporaneous notes taken by the subordinates;
           •   the first-line manager confirmed that the supervisor did not demonstrate adequate
               interpersonal skills toward the subordinates;
           •   Regional management took the unusual step of removing the supervisor from two
               separate offices within 1 year and 8 months, amid complaints about the
               supervisor’s behavior. Supervisors typically spend 5 to 7 years at an office before
               management moves (rotates) them to another office.

The evidence indicates that the supervisor’s behavior was inconsistent with the primary ethical
values contained in DoD 5500.7-R, which includes fairness, caring, and respect, in discharging
her duties as a supervisor. In addition, the supervisor’s performance was unacceptable according
to the “Interpersonal Skills and Teaming” performance standard that DCAA has established for
supervisors. This standard requires that the supervisor, “Establish and maintain working
relationships inside and outside DCAA,” and includes the following examples of “unacceptable”
performance:

         “…Responds negatively or uncooperatively to requests requiring supervisory
         mediation. Justified complaints are often received regarding attitude and
         approach.….Fails to consistently support and promote the team concept as articulated
         in Agency and Regional goals and objectives….”

While the supervisor should have recognized that her behavior was inappropriate, management
also bears part of the responsibility. Even though the supervisor’s difficulties with the
subordinates were clearly evident as a result of the February 2008 climate survey, management
failed to take any timely or substantive action to improve the work environment. As discussed
below, management also did not adequately monitor, counsel, or hold the supervisor accountable
for her actions.

Management Failed to Hold the Supervisor Accountable for Her Actions. We
substantiated the allegation that management did not hold the supervisor accountable for her
actions. During the annual evaluation process, and as part of the probationary period,
management did not hold the supervisor accountable for failing to establish a professional work
environment. While discipline might have been appropriate, it would have been hampered by
management’s failure to fulfill its responsibility of monitoring and counseling the supervisor
during her 1-year probationary period, as Chapter 18 of the DCAA Personnel Management


                                                  5
Manual requires. The management culture within DCAA at that time, which emphasized
productivity over quality, also contributed to the difficulties that the supervisor had in working
with her staff.

Annual Appraisals. Management did not hold the supervisor accountable for her actions as part
of the annual appraisal process. The annual appraisal process at DCAA includes two
components, the performance appraisal rating and promotion potential score. In the performance
appraisal, the first-line manager rated the supervisor as “Exceeds Fully Successful” (the second
highest rating) in the area of “Interpersonal Skills and Teaming.” In her promotion potential
score, which assesses the supervisor’s ability to perform at the next level of responsibility, the
first-line manager rated the supervisor highly in her ability to establish and maintain a
cooperative working environment. These ratings are not reflective of the difficulty that the
supervisor had in interacting with subordinates at both Offices A and B. Even though the first-
line manager told us that the supervisor did not demonstrate adequate interpersonal skills with
her subordinates, the same manager continued to give the supervisor high ratings on
interpersonal skills. In addition, the first-line manager did not prepare an “exit” appraisal rating
covering her last (partial) year as a supervisor, which is in noncompliance with DCAA Personnel
Management Manual, Chapter 17, section 5-4c.

We also noted that management did not hold the supervisor accountable using disciplinary action
(for example, written reprimand, downgrade, etc.). However, disciplinary action might have
been hampered because management failed in its responsibility to provide the necessary
monitoring and counseling needed to help the supervisor deal effectively with subordinates.

Monitoring and Counseling. DCAA Personnel Management Manual, Chapter 18,
paragraph 3-1, states,

         “The Agency is required to monitor new supervisors and managers during the
         probationary period and to keep them informed of their progress. They must be given
         an adequate opportunity to perform successfully, and the Agency must provide the
         support to help them succeed.”

Our review disclosed indications that management did not adequately monitor and document the
supervisor’s progress during her probationary period. As part of the 1-year probationary period,
the first-line manager prepared two evaluations on the supervisor’s progress, one covering the
first 6 months and another covering the first 10 months. The 6-month evaluation reflected that
her performance was satisfactory in all areas, including “Maintains Effective Interpersonal
Relationships.” On the 10-month evaluation, the first-line manager again rated the supervisor as
satisfactory in all areas, but management used the form for rating auditors, not supervisors. Use
of the wrong form is indicative of the lack of attention paid to documenting the supervisor’s
actions during the 1-year probationary period (May 2007 through May 2008).

We found no evidence that management had appropriately increased its monitoring efforts of the
supervisor even after the February 2008 climate survey. Management should have recognized
the need to closely monitor the supervisor’s actions and take timely corrective action to improve


                                                 6
the deteriorated work environment. The offer to transfer the subordinates to another office was
not an acceptable management response because it did not address the underlying behavior that
was impacting the work environment.

The supervisor stated in her interview that she did not receive counseling regarding her
interactions with subordinates. While the first line manager said that she had verbally counseled
the supervisor on several occasions, the supervisor stated that she was not told of any serious
problems until management informed her that she was being placed on a Performance
Improvement Plan 4, just days before management removed her as a supervisor in February 2009.
The first-line manager should have used the probationary period to closely monitor and counsel
the supervisor on her actions in order to accurately document the supervisor’s progress, provide
constructive counseling, identify additional training needs, and ultimately determine whether the
supervisor should continue in a supervisory capacity beyond the probationary period.
Management’s failure to take appropriate action was inconsistent with the DCAA Personnel
Management Manual, Chapter 18, paragraph 1-3, which states, “The probationary period
provides the Agency with an opportunity to assess the newly appointed supervisor or manager’s
skills in a position of leadership, and to return the employee to a non-supervisory or non-
managerial position should circumstances warrant.” DCAA should consider appropriate actions
concerning the first line manager to emphasize and reinforce the need to monitor and counsel
supervisors during their probationary period, and prepare annual evaluations that accurately
reflect their performance.

Currently, DCAA procedures require that management prepare only one evaluation during a
supervisor’s probationary period, at the end of 6 months. The supervisor’s difficulties we noted
in this case are not unique. We plan to report on additional Hotline allegations we substantiated,
which involve the questionable behavior of other supervisors during their probationary period.
GAO reports also identified several instances of supervisor actions that did not comply with
Generally Accepted Government Auditing Standards. To help ensure that management carries
out an effective and continual monitoring program, management should prepare evaluations at
least three times during the supervisory probationary period. We suggest using the same rating
schedule that DCAA uses for auditors on probation, which requires evaluations at the end
of 3 months, 6 months, and 10 months.

Training. The supervisor attended the standard one-week training course given to all
supervisors. Management also provided the supervisor with specific training on interpersonal
skills, but the training was not provided until one month after her removal as a supervisor. Had
management effectively monitored and documented the supervisor’s additional training needs
during probation, she would have received this training in a timely manner and might have been
able to recognize and correct her questionable behavior.

Management Culture. The supervisor’s poor behavior toward the subordinates was partly
rooted in the agency-wide DCAA culture of production-oriented metrics and management
4
 When an employee is placed on a Performance Improvement Plan, they need to show improvement within an
established period of time or face disciplinary action.



                                                     7
intimidation that the Government Accountability Office addressed in its July 2008 and
September 2009 reports.

The supervisor’s second line manager for Office A stated that she wanted to institute changes
because she felt Office A lacked “structure.” Shortly after becoming the supervisor of Office A
in May 2007, the second-line manager instructed the supervisor and the first-line manager to take
a more “hands-on” approach to supervising audits and to implement productivity metrics in order
to “focus resources with the largest payback.” A metric tracked closely by management included
the ratio of dollars recovered to audit hours expended. As part of the climate survey, the
subordinates expressed concern that such a metric was inappropriate based on the work
performed by Office A. However, management ignored the subordinates’ concerns regarding
this metric. The second-line manager said the changes (including metrics) were necessary
because some of the subordinates believed that, "You can kick back and not have to worry about
due dates and metrics and budgets and all that kind of stuff." The second-line manager also
commented that some audits had lasted for years and she was not confident that it was
“productive work.”

The second-line manager’s direction to the supervisor, and her perceptions of the Office A
subordinates, likely exacerbated the supervisor’s poor behavior toward the subordinates and led
to an atmosphere of mutual distrust and disrespect. We also noted an instance where the second-
line manager did not set a good example of appropriate management behavior during an email
exchange with an Office A subordinate. In a prior email, the subordinate had suggested that the
supervisor reconsider her decision on an issue because it might be contrary to a DCAA
Headquarters requirement. The second-line manager responded to the subordinate as follows:

           “The question has been asked and answered!...It is unproductive of you, and undermining
           to (her) role as your supervisor, for you to have pursued this further after (the supervisor)
           already provided an answer/decision. Your time is better spent working on your (audits).”
           (supervisor’s name was removed)

This response was counter-productive and unnecessarily harsh in its tone. While management
should take a firm position on issues from time to time, management must nevertheless treat
subordinates in a manner which fosters a productive work environment and encourages
professional discourse. Ridiculing and intimidating subordinates for raising legitimate
suggestions or questions is not acceptable management behavior. DCAA should consider
appropriate actions concerning the second-line manager, to clarify and reinforce appropriate
management behavior.

DCAA Corrective Actions. In response to the DoD IG and Government Accountability Office
reports, DCAA took several actions in its effort to change the Agency culture and to focus on
audit quality. Among them, DCAA eliminated 18 productivity metrics, developed 8 new
performance measures, and re-emphasized its policy of zero-based budgeting 5. The Northeast
Region also eliminated the metric imposed on Office A referred to above. In addition, DCAA
5
 Zero-based budgeting is the process during which the supervisor and the auditor discuss and agree on the budgeted
hours required to perform an audit based on the risk assessment, audit scope, and audit program.


                                                        8
made significant revisions to its training program provided to managers and supervisors. We
will be evaluating the effectiveness of these corrective actions separately. In the interim, DCAA
should evaluate the adequacy of its current procedures and training curriculum for supervisors
and managers to help prevent incidents of improper behavior, lack of accountability, and
ineffective monitoring.


Recommendations, Management Comments, and
Our Response.
We recommend that the Director, Defense Contract Audit Agency:

       1. Put in place a process to require that management evaluate the progress of new
          supervisors at least three times during the 1-year probationary period, after the
          3rd, 6th, and 10th months.

                Management Comments. The Director concurred. By June 30, 2011, DCAA
                will develop and deploy a standardized process to evaluate the progress of new
                supervisors at least three times during the 1-year probationary period.

                Our Response. The management comments are responsive.

       2. Assess the effectiveness of current procedures and the training curriculum for
          supervisors and managers to help ensure that:

                a. supervisors receive adequate and timely guidance on enhancing their
                   interpersonal skills;
                b. management implements a strong program of monitoring supervisors
                   continually during the 1-year probationary period and takes timely and
                   appropriate action;
                c. management fosters a culture of mutual trust and respect with
                   employees; and
                d. management holds supervisors accountable for their actions through
                   the annual evaluation process, including their ability to maintain
                   effective working relationships with subordinates.

                Management Comments. The Director concurred. DCAA is currently
                delivering a significantly redesigned supervisory course to emphasize cultural
                values such as mutual respect and the importance of interpersonal skills. All
                employees who supervise, regardless of grade, must successfully pass this
                redesigned course in FY 2011. This course also discusses accountability,
                progressive discipline, performance evaluations, probationary periods, and the
                responsibility to help professionally develop their staff. Also, DCAA



                                                9
        contracted with an external group to develop an interpersonal skills course that
        will be available to all DCAA employees.

        Our Response. The management comments are responsive. In a separate
        review, we will review the adequacy of the redesigned supervisory training
        course.

3. Consider appropriate actions concerning the first-line manager to clarify and
   reinforce the need to:

        a. closely monitor and counsel supervisors during their probationary
           period;
        b. prepare annual evaluations that accurately depict a supervisor’s
           performance, including their ability to establish and maintain an
           effective working environment; and
        c. identify appropriate and timely corrective actions for supervisors, such
           as additional training needs.

        Management Comments. The Director concurred. In November 2010, the
        first-line manager successfully completed the redesigned supervisory course and
        two self-study courses. Upper management will also discuss the issues in this
        case with her to identify those areas that are better handled differently in the
        future.

        Our Response. The management comments are responsive.

4. Consider appropriate actions concerning the second-line manager in order to
   clarify and reinforce appropriate management behavior toward subordinates,
   including subordinate supervisors.

        Management Comments. The Director concurred. The second-line manager
        will be counseled relative to the appropriate tone and professionalism of all
        future communications, written and oral, with subordinate employees.

         Our Response. The management comments are responsive.




                                       10
Appendix A. Scope and Methodology
We reviewed the DoD Hotline complaint to determine if allegations of abusive behavior
involving a supervisor in the DCAA Northeastern Region could be substantiated. Specifically,
we:

       •   interviewed nine auditors who worked for the supervisor at Offices A and B in the
           Northeastern Region;
       •   interviewed the supervisor (subject of the complaint);
       •   interviewed the supervisor’s first and second line managers ;
       •   interviewed the supervisor’s current manager;
       •   obtained and analyzed a climate survey of Office A that a Human Resources Officer
           conducted;
       •   reviewed the supervisor’s Official Personnel File maintained by Defense Finance and
           Accounting Service; and
       •   examined the supervisor’s personnel file maintained by the DCAA Northeastern
           Region.

We performed this review from February through October 2010.

Use of Computer-Processed Data. We did not rely on any computer-processed data as part
of our review.

Prior Coverage. In the last 5 years, the DoD Inspector General issued two reports related to
work environment issues at DCAA, including:

       •   Report No. D-2009-6-009, “Defense Contract Audit Agency Audit Work
           Deficiencies and Abusive Work Environment Identified by the Government
           Accountability Office,” August 31, 2009. (The unrestricted DoD Inspector General
           report can be accessed at http://www.dodig.mil.)

       •   Report No. D-2011-6-001, “Hotline Allegations Involving Management Harassment
           of a Complainant in the Defense Contract Audit Agency Western Region,”
           October 29, 2010.




                                               11
Defense Contract Audit Agency Comments




                    12
13
14
